HHS/OIG, Audit - "Review of Undistributable Child Support Collections in
Connecticut From October 1998 Through December 2005," (A-01-06-02502)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Undistributable Child Support Collections in
Connecticut From October 1998 Through December 2005," (A-01-06-02502)
January 29, 2007
Complete Text of Report is available in PDF format (1.3 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the State agency appropriately reported program income for undistributable child support collections and interest earned on program funds.
As of the quarter that ended December 2005, the State agency had not reported program income totaling $1,616,270 ($1,066,738 Federal share) in outstanding unclaimed or undistributed child support collections that were held more than 3 years. These amounts included $1,121,914 ($740,463 Federal share) in outstanding uncashed child support checks held by the fiscal agent since 2001 and $494,356 ($326,275 Federal share) identified on the quarterly Office of Child Support Enforcement (OCSE) forms as undistributed child support collections that the State agency had not declared as abandoned.
We recommended that the State agency (1) report child support collections totaling $1,616,270 ($1,066,738 Federal share) as abandoned and undistributable and report this amount as program income on its quarterly OCSE reports and (2) implement controls to ensure that State unclaimed property procedures are adhered to and that all future collections remaining undistributable for more than 3 years are declared abandoned and reported as program income on the quarterly OCSE reports. The State agency generally agreed with our recommendations.